December 31, 2020

Scott P. Martin
SMartin@perkinscoie.com
D. +1.206.359.3600
F. +1.206.359.4600

Scott S. Harris, Esq.
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Servotronics, Inc. v. Rolls-Royce PLC et al., No. 20-794

Dear Mr. Harris:
I am counsel of record for respondent The Boeing Company in the above-captioned case. I write
to request a 30-day extension of time, to and including February 10, 2021, for all respondents to
file any brief in opposition. See S. Ct. R. 30.4. The petition for a writ of certiorari was filed on
December 7, 2020 and docketed on December 11, 2020; absent an extension, any brief in opposition would be due on January 11, 2021.
Boeing has received notice from an amicus curiae of its intention to file an amicus brief in support
of petitioner. See S. Ct. R. 37.2(a). The requested extension is warranted to ensure that respondents
will be able to address that brief, as appropriate, in any brief in opposition.
Thank you very much for your time and consideration.
Respectfully submitted,

Scott P. Martin
cc:

Stephen R. Stegich III, Esq.
Larry S. Kaplan, Esq.

